Nos. 19-807
IN THE SUPREME COURT OF THE UNITED STATES
BANK MELLI,
Petitioner,
vs.
MICHAEL BENNETT, et al.,
PROOF OF SERVICE

Respondents.

I, Nikolina Gurfinkel, do swear that on this date, February 26, 2020, as required
by Supreme Court Rule 29, I have served the enclosed JOINT BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by giving three true
copies of same, addressed to each individual respectively, and enclosed in a properly
addressed wrapper, to Federal Express for Overnight Delivery, postage prepaid.
The names and addresses of those served are as follows:
ROBERT K. KRY
Counsel of Record
MOLOLAMKEN LLP
The Watergate, Suite 660
600 New Hampshire Avenue, N.W.
Washington, D.C. 20037
(202) 556-2011
rkry@mololamken.com
Attorneys for Petitioner Bank Melli
That on the same date as above, I sent to this Court forty copies of the within
JOINT BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI via Federal
Express Overnight Delivery, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me on this
26th day of February, 2020.

s/Nikolina Gurfinkel
Nikolina Gurfinkel
ORIGINAL

37394

